                             Office of the Inspector General

July 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Improving the Usefulness of the Social Security Administration’s Death Master File
(A-09-98-61011)


Attached is a copy of our final report. The objective of the evaluation was to identify
methods for improving the usefulness of the Social Security Administration’s Death
Master File for third-party users.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                  James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  IMPROVING THE USEFULNESS

     OF SOCIAL SECURITY

      ADMINISTRATION'S

     DEATH MASTER FILE


  July 2000      A-09-98-61011





EVALUATION

  REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                     EXECUTIVE SUMMARY


OBJECTIVE

The objective of this evaluation was to identify methods for improving the usefulness
of the Social Security Administration’s (SSA) Death Master File (DMF) for third-party
users.

BACKGROUND

SSA maintains an official repository of death information via the DMF, which is widely
used in the public and private sectors. The DMF is part of the Numident, a master file
that contains personal identifying information about each individual to whom SSA has
assigned a Social Security number. SSA provides the DMF on computer tapes to
third-party users. SSA created the DMF as the result of a 1978 lawsuit requiring the
Agency to make death information available under the Freedom of Information Act.
Congress also enacted legislation requiring that SSA provide death information to
various Federal and State agencies in order to prevent erroneous payments to
deceased individuals. SSA uses the DMF to fulfill these obligations.

SSA receives reports of death from a number of sources, such as friends and relatives
of deceased individuals, funeral directors, financial institutions, and postal authorities.
SSA processes these reports through its field offices and processing centers. In
addition, SSA performs a computer match with death data from Federal and State
agencies. The DMF contains information on all deaths reported to SSA for beneficiaries
and nonbeneficiaries. For beneficiaries, SSA verifies the death before awarding
survivors’ benefits and obtains reasonable assurance about the death before
terminating benefits and recording the death on its master payment files. For
nonbeneficiaries, SSA does not verify the death information. In both cases, the
information is recorded on the Numident and becomes part of the DMF.

RESULTS OF REVIEW
Our review disclosed that SSA’s master payment files contained death information that
had not been included in its DMF. In January 1998, SSA conducted a special project to
match death information on the Master Beneficiary Record (MBR) 1 and Numident. The
match identified about 2.2 million deaths on the MBR that were not recorded on the
Numident. SSA subsequently recorded about 0.9 million of these deaths through a
computer program that required personal identifying information on the two files to
match within prescribed tolerances. As a result of data discrepancies, about 1.3 million

1
    The MBR is the master payment file for the Old-Age, Survivors and Disability Insurance program.


                                                     i
deaths remained unrecorded on the Numident. Thus, these deaths were not included
on the DMF even though SSA had awarded or terminated benefits based on the
accuracy of the death information.

We also found that the DMF did not identify which deaths had been sufficiently verified
by SSA as a basis for awarding or terminating benefits. Although SSA verifies a death
before awarding survivors’ benefits and obtains reasonable assurance of a beneficiary’s
death before terminating benefits, this information is not provided on the DMF. Such
information would be helpful to other agencies that use the DMF to detect and prevent
erroneous payments to deceased individuals. For example, individuals may apply for
benefits (e.g., food stamps) using the identity of a deceased person. Other agencies
could identify such fraudulent activity and administer their programs more effectively if
they were aware that SSA had performed sufficient verification to rely on the accuracy
of the death information to award or terminate benefits.

CONCLUSIONS AND RECOMMENDATIONS

We concluded that SSA should initiate procedural changes in how it records death
information on the DMF. These changes are necessary to ensure that SSA complies
with legislative requirements and provides full disclosure of all death information in its
possession. In addition, such changes would improve the usefulness of the DMF for
third-party users and reduce the potential for erroneous payments to deceased
individuals. Specifically, we recommend that SSA:

•	 Reconcile the 1.3 million deaths that were recorded on the MBR but not recorded on
   the Numident and ensure that, in the future, all deaths are included on the DMF.

•	 Annotate the DMF to identify which deaths have been sufficiently verified by the
   Agency prior to awarding or terminating benefits.

AGENCY COMMENTS AND OIG RESPONSE
In its response, SSA did not agree with our first recommendation. SSA stated that a
manual reconciliation process would be extremely difficult and labor intensive. SSA
also stated that payment accuracy is the highest priority of the Agency. Therefore, its
efforts and resources have been directed towards ensuring the accuracy of the MBR,
not the Numident. Although we agree that payment accuracy is important, we believe
that SSA could improve the usefulness of the DMF by providing full disclosure of
verified death information from the MBR to third-party users. We recognize that
dedicating resources to reconcile prior death records on the MBR may not be as high of
a priority as other day-to-day Agency workloads. However, the accuracy of this
information is becoming more and more important to the combined Federal, State and
local initiatives to detect and prevent identify theft. We therefore, believe the Agency
should reconcile these files in the most expeditious and practical manner.




                                              ii
SSA agreed with our second recommendation. SSA stated that annotating the DMF to
reflect which deaths have been proven or verified by the Agency would be helpful to
other agencies that use the file to detect and prevent erroneous payments to deceased
individuals. At its next Client/Enumeration 5-Year Plan Committee meeting, SSA
agreed to request that this initiative be included in a future release of the Death Alert,
Control, and Update System. The full text of SSA’s comments is included in
Appendix B.




                                             iii
                           TABLE OF CONTENTS


                                                                                                                         Page


EXECUTIVE SUMMARY ....................................................................................................i


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................5


     SOME DEATHS WERE NOT RECORDED ON THE DMF ....................................5


     VERIFICATION OF DEATHS SHOULD BE DISCLOSED.....................................7


CONCLUSIONS AND RECOMMENDATIONS .............................................................9



APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgements

APPENDIX D – SSA Organizational Chart

                          INTRODUCTION


OBJECTIVE

The objective of this evaluation was to identify methods for improving the usefulness
of the Social Security Administration’s (SSA) Death Master File (DMF) for third-party
users.

BACKGROUND

SSA maintains death information for use in both the public and private sectors. The
information is reported by various Federal, State, and private sources. SSA is required
to collect and maintain this information by law. It is also required to make the death
information available to other agencies to detect and prevent erroneous payments to
deceased individuals.

The Death Master File

SSA created the DMF because of a 1978 lawsuit by Mr. Ronald Perholtz, a District of
Columbia businessman. Mr. Perholtz requested death information so that he could sell
it to other companies for their use in identifying deceased individuals. As a result of that
lawsuit, SSA now maintains the DMF and provides the file on a cost-reimbursable basis
under the Freedom of Information Act (FOIA). In addition, Congress enacted legislation
requiring SSA to provide the DMF to Federal and State agencies that disburse federally
funded benefits. The purpose of the law is to assist other agencies in preventing
erroneous payments to deceased individuals.

SSA stores death information on the Numident, a master file that provides personal
identifying information for each individual who has been issued a Social Security
number (SSN). This information consists of the individual’s full name, SSN, and date of
birth. Generally, the place of birth and parents’ full names are also included. SSA
extracts information from the Numident and creates a complete DMF each quarter. The
DMF is provided to third-party users via computer tapes. Each month, SSA provides a
supplemental tape containing newly recorded deaths and any changes or deletions to
the file.

The DMF is distributed to 10 Federal agencies, including 4 that pay Federal benefits.
The agencies use the file to identify deceased individuals who are receiving benefits. In
addition, the DMF is released to the National Technical Information Service, which
responds to FOIA requests. To limit its liability for erroneous information on the DMF,
SSA places the following disclaimer on the file: “ATTENTION ALL USERS: Many of
the items in this file have not been verified. You should not conclude that a person



                                             1
listed in this file is necessarily deceased. This person may still be alive . . . Please
verify every record before taking action on it . . . .”

Reporting and Processing of Death Information

About 2.3 million people die annually in the United States, of whom 1.9 million are SSA
beneficiaries. SSA receives about 95 percent of its death reports from friends and
relatives of deceased individuals, funeral directors, financial institutions, and postal
authorities. This information is reported through SSA’s field offices (FO) and processing
centers. SSA also conducts a computer match of death data it receives from the
Veterans Administration (VA), Health Care Financing Administration, and State
agencies (e.g., bureaus of vital statistics and social services agencies) under contracts
with the 50 States, Puerto Rico, District of Columbia, and New York City.

SSA’s Death Alert, Control, and Update System (DACUS) processes the death
information and performs the computer match with other Federal and State agencies.
DACUS receives the death reports and compares them to SSA’s payment files. If the
comparison indicates that payments have been made after death or there is conflicting
information about the date of death, DACUS issues an alert to the FO. The FO then
determines the validity of the information and takes action, as appropriate, to terminate
payments and correct SSA’s records. If there is no conflicting information, DACUS
records the death information on the Numident. The following flowchart provides an
overview of DACUS.


                 PROCESSING OF DEATH INFORMATION THROUGH
              DEATH ALERT, CONTROL, AND UPDATE SYSTEM (DACUS)




                                                            Compare Death
                                      DACUS                 Reports to Payment
    Death Reports                                           Files to Determine
    Submitted to SSA                                        Beneficiary Status
                                                                                                                            Stop

                                                                                       Input Death Data
                                                                                       Into Payment Files
                                                                                                                        Delete
                                                                                                                        Alert
                                Obtain Daily Death         SSA’s Payment Files
                                Terminations from          - Title II
                                Payment Files and          - Title XVI                       No                                Yes
                                Input Data Into
                                DACUS to Clear                                                          Individual
                                Death Reports                                                           Still Alive?




                                                     No   Current Beneficiary,        Yes
                       Record Date of Death
       Stop                                               Former Beneficiary, or                  Generate a Death Alert
                       on Numident                        Discrepant Date of Death?               and Forward to Field
                                                                                                  Office for Verification




                                                             2
Before processing the deaths through DACUS, SSA uses the Enumeration Verification
System (EVS) to ensure that the same person was identified on the death report and
the Numident record. EVS is a computer program that compares the personal
identifying information between the death report and the matched Numident record to
validate the identity of the person. EVS verifies and approves the match if the record
satisfies specific criteria.

The matching criteria are complex and include tolerances for misspelled names and
errors in the date of birth. The name-spelling tolerances include one-letter differences,
transposition of two adjacent letters, an extraneous or missing letter, or a compound
surname. The date-of-birth matching rules require either (1) the exact year of birth to
match the year on the Numident, or (2) the year plus or minus 1 year and the exact
month of birth to match. If an approved match is found, the death report is then
processed through DACUS.

Legislative History

Under current law, States may restrict SSA from disclosing their death information to
anyone except other Federal agencies that disburse benefits. Since 26 States, District
of Columbia, and New York City have imposed this restriction, SSA maintains one DMF
but releases two different copies of the file. One copy excludes death information
supplied by the State bureaus of vital statistics. SSA makes this copy available under
FOIA. The other copy is provided to Federal benefit-paying agencies, including the
Department of Defense, Office of Personnel Management, Railroad Retirement Board
(RRB), and VA. As of December 1998, this copy contained 62.6 million records.

Public Law 98-21, enacted in 1983, requires SSA to enter into contractual agreements
to obtain State death records. It also sets forth the conditions under which SSA may
provide State information to other Federal and State agencies. Further, it precludes
using State information for purposes unrelated to administering benefit payments or
disclosing it under FOIA.

The Omnibus Budget Reconciliation Act of 1993 amended the Internal Revenue Code
to provide for sharing of State death records. This law stipulated that any State not
allowing SSA to disclose all death records to other Federal benefit-paying agencies will
no longer receive tax information from the Internal Revenue Service. It allowed SSA to
share previously restricted State death records with selected Federal agencies because
all States entered into agreements to allow such limited disclosure.

On September 7, 1993, the National Performance Review recommended that
SSA become the “clearinghouse for death reporting and information.” One of the
recommendations further encouraged data sharing by proposing that States be required
to use SSA data if they disburse federally funded benefits. Another recommendation
was that SSA negotiate agreements with the States to permit disclosure of death data
to other Federal, State, and local agencies.




                                            3
Public Law 105-379, enacted in 1998, requires State agencies that issue food stamps to
enter into cooperative arrangements with the Commissioner of Social Security. These
arrangements enable the agencies to obtain death information from SSA to prevent the
issuance of food stamps to deceased individuals. This law increased the importance of
the DMF. As a result, death information will be distributed to an additional 53 agencies
(50 States plus District of Columbia, Guam, and Virgin Islands), which provide about
$25.8 billion in food stamps annually to an estimated 23.4 million recipients.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

   •	 conducted interviews with employees from SSA’s Headquarters, including the
      Office of Program Benefits, Office of Systems Requirements, Office of Systems
      Design and Development, Office of Public Service and Operations Support,
      Office of Retirement Policy, Office of Congressional Relations, and Office of
      Quality Assurance and Performance Assessment;

   •	 reviewed applicable sections of the Social Security Act, Public Laws, Code of
      Federal Regulations, Office of Management and Budget bulletins, and SSA's
      Program Operations Manual System;

   •	 obtained a legal opinion about SSA’s responsibilities for the accuracy of the
      DMF;

   •   conducted interviews with employees from VA and RRB; and

   •	 reviewed prior audit and evaluation reports related to the DMF issued by
      the General Accounting Office (GAO), VA’s Office of Inspector General (OIG),
      Department of Health and Human Services’ OIG, and SSA’s OIG.

In addition, we obtained information from SSA employees about the reporting and
processing of death data through DACUS. We also obtained information about the
DMF, including the results of SSA’s special project to identify deaths recorded on the
Master Beneficiary Record (MBR) that were not recorded on the Numident as of
January 1998. Because SSA only retained summarized data for the project, we did not
verify the accuracy of that information.

We performed field work in Baltimore, Maryland, and Richmond, California, from
November 1998 to July 1999. We conducted our evaluation in accordance with the
Quality Standards for Inspections issued by the President's Council on Integrity and
Efficiency.




                                           4
                                     RESULTS OF REVIEW


SSA could improve the usefulness of the DMF by including additional deaths on the file
and indicating which deaths it had already verified. Specifically, we found that SSA did
not record about 1.3 million deaths on the Numident. Therefore, these deaths were
omitted from the DMF. In addition, the DMF did not identify which deaths had been
sufficiently verified by SSA as a basis for awarding or terminating benefits. Such
information would assist other agencies in detecting and preventing erroneous
payments to deceased individuals.

SOME DEATHS WERE NOT RECORDED ON THE DMF

Our review disclosed that SSA’s master payment files contained death information that
had not been included in its DMF. In January 1998, SSA conducted a special project to
match death information on the MBR and Numident. The match identified about
2.2 million deaths on the MBR that were not recorded on the Numident. SSA
subsequently recorded about 0.9 million of these deaths through a computer program
that required personal identifying information on the two files to match within prescribed
tolerances. As a result of data discrepancies, about 1.3 million deaths remained
unrecorded on the Numident. Thus, these deaths were not included on the DMF even
though SSA had awarded or terminated benefits based on the accuracy of the death
information. The results of the special project are summarized below.



                         Results of Match Between MBR and Numident
                                                    January 1998

                         2,500,000


                         2,000,000
      Number of Deaths




                         1,500,000


                         1,000,000


                          500,000


                                0
                                        Initially      Subsequently   Remaining
                                      Unrecorded        Recorded      Unrecorded




                                                          5
SSA conducted the match to ensure that deaths recorded on the MBR were also
recorded on the Numident and included on the DMF. For the 1.3 million unrecorded
deaths, the personal identifying information on the MBR and Numident did not match
within prescribed tolerances. The matching criteria required the first seven letters of the
first and last names, month and year of birth, and gender to match exactly before
recording the death information on the Numident. We were unable to examine these
records because SSA did not retain the results of the special project. However, SSA
provided us with a breakdown of the 1.3 million unrecorded deaths. As depicted in the
following chart, about 62 percent of the records did not match due to differences in
name, another 32 percent did not match d ue to differences in the date of birth, and
about 5 percent did not match due to differences in gender.



                 Deaths Not Recorded on the Numident
                           By Type of Discrepant Information

      Name                                                              Date of Birth
      797,368 (62.2%)                                                   415,384 (32.4%)




                                      Miscellaneous             Gender
                                      1,063 (0.1%)              68,100 (5.3%)



SSA employees 2 informed us that differences in names could result from various
events. For example, a person may use a full legal name when applying for a SSN and
that name would appear on the Numident. Later, when applying for benefits, that
person may use a variation of the full legal name and that variation would appear on the
MBR. Thus, the MBR and Numident would have different first names. Another
example would be a woman who marries and assumes her spouse’s last name. If she
applied for her SSN under her maiden name and applied for benefits under her married
name, the MBR and Numident would have different last names. In addition, an
immigrant may shorten a long last name or change its spelling over a period of time.
Consequently, this individual could have different names on the MBR and Numident.

2
 Including staff members from the Office of Systems Requirements and Office of Systems Design and
Development.


                                                 6
SSA employees 3 also stated that the date of birth could be different for a number of
reasons. When applying for an SSN, immigrants may have weak evidence of the actual
date of birth. Later, when applying for benefits, better evidence of the date of birth is
provided, but the Numident may not have been updated. As a result, the date of birth
on the Numident is incorrect while the MBR contains the correct date. Further, prior
to 1971, SSA did not require proof of age when applying for an SSN. Thus, some
individuals may have reported their dates of birth incorrectly to enter the military or for
other purposes. However, when they applied for benefits, their true dates of birth were
used. The differences in gender were attributed to clerical errors.

We believe that SSA could improve the usefulness of the DMF by resolving the
discrepancies for the deaths that were included on the MBR but excluded from the
Numident. Regardless of the name, gender, and date of birth on the Numident, SSA
had sufficient personal identifying information to pay benefits to these individuals and
obtained reasonable assurance about the death before it terminated their payments or
awarded benefits to eligible survivors. Unless these discrepancies are properly
resolved and recorded on the DMF, individuals could assume the identities of deceased
beneficiaries to defraud the Social Security program. Therefore, we recommend that
SSA reconcile the 1.3 million deaths that were recorded on the MBR but not recorded
on the Numident and ensure that, in the future, all deaths are included on the DMF.

VERIFICATION OF DEATHS SHOULD BE DISCLOSED

We found that the DMF did not identify which deaths had been sufficiently verified by
SSA as a basis for awarding or terminating benefits. Although SSA verifies a death
before awarding survivors’ benefits and obtains reasonable assurance of a beneficiary’s
death before terminating benefits, this information is not provided on the DMF. Such
information would be helpful to other agencies that use the DMF to detect and prevent
erroneous payments to deceased individuals. For example, individuals may apply for
benefits (e.g., food stamps) using the identity of a deceased person. Other agencies
could identify such fraudulent activity and administer their programs more effectively if
they were aware that SSA had performed sufficient verification to rely on the accuracy
of the death information to award or terminate benefits.

Before awarding survivor benefits, SSA requires proof of the worker’s death. Generally,
such proof must consist of a certified copy of the public record of death, written
statement by the attending physician, certified copy of the coroner’s report of death,
or written statement from the funeral director. Thus, SSA can be reasonably certain
that the death occurred and information about the death is accurate before it awards
benefits.

Likewise, SSA obtains reasonable assurance that the reported death of a beneficiary
has occurred before terminating benefits. For example, if the report of death is received
by mail, telephone, or in person, SSA ensures that the report is from a competent

3
    Ibidem.


                                            7
source (i.e., representative payee, funeral director, relative, or friend). SSA also
ensures that the report contains the name, SSN, and sufficient information to make the
determination that the individual is deceased.

Recent legislation requires SSA to provide death data to State food stamp agencies to
ensure that food stamp coupons are not issued to deceased individuals. 4 The DMF will
be distributed to these agencies for the purpose of detecting and preventing such
fraudulent activity. In 1998, GAO identified about 26,000 deceased individuals in
four States who were included in households receiving food stamps. GAO estimated
that these households improperly received about $8.5 million in food stamp benefits
over a 2-year period.5 Knowing that SSA had relied on the accuracy of death
information to award or terminate benefits would provide the State agency with
additional assurance that the individual was actually deceased. This assurance should
allow the agency to process actions more timely and efficiently.

We believe that SSA expends considerable effort to obtain reasonable assurance about
the death of an individual when it affects the initial eligibility for or continuing entitlement
to Social Security benefits. Other agencies should have the opportunity to benefit from
this effort, thereby reducing the potential for fraud, waste, and abuse. Accordingly, we
recommend that SSA annotate the DMF to identify which deaths have been sufficiently
verified by the Agency prior to awarding or terminating benefits.




4
    Public Law 105-379, section 1, 112 Stat. 3399.
5
 “Food Stamp Overpayments: Thousands of Deceased Individuals are Being Counted as Household
Members,” GAO/RCED-98-53, February 1998.


                                                     8
 CONCLUSIONS AND RECOMMENDATIONS


We concluded that SSA should initiate procedural changes in how it records death
information on the DMF. These changes are necessary to ensure that SSA complies
with legislative requirements and provides full disclosure of all death information in its
possession. In addition, such changes should improve the usefulness of the DMF for
third-party users and reduce the potential for erroneous payments to deceased
individuals. Specifically, we recommend that SSA:

1.	 Reconcile the 1.3 million deaths that were recorded on the MBR but not recorded
    on the Numident and ensure that, in the future, all deaths are included on the DMF.

2.	 Annotate the DMF to identify which deaths have been sufficiently verified by the
    Agency prior to awarding or terminating benefits.

AGENCY COMMENTS AND OIG RESPONSE

In its response, SSA did not agree with our first recommendation. SSA stated that a
manual reconciliation process would be extremely difficult and labor intensive. SSA
also stated that payment accuracy is the highest priority of the Agency. Therefore, its
efforts and resources have been directed towards ensuring the accuracy of the MBR,
not the Numident. Although we agree that payment accuracy is important, we believe
that SSA could improve the usefulness of the DMF by providing full disclosure of
verified death information from the MBR to third-party users. We recognize that
dedicating resources to reconcile prior death records on the MBR may not be as high of
a priority as other day-to-day Agency workloads. However, the accuracy of this
information is becoming more and more important to the combined Federal, State and
local initiatives to detect and prevent identify theft. We therefore, believe the Agency
should reconcile these files in the most expeditious and practical manner.

SSA agreed with our second recommendation. SSA stated that annotating the DMF to
reflect which deaths have been proven or verified by the Agency would be helpful to
other agencies that use the file to detect and prevent erroneous payments to deceased
individuals. At its next Client/Enumeration 5-Year Plan Committee meeting, SSA
agreed to request that this initiative be included in a future release of the Death Alert,
Control, and Update System. The full text of SSA’s comments is included in
Appendix B.




                                              9
APPENDICES

                                                   APPENDIX A


                    ACRONYMS


DACUS   Death Alert, Control, and Update System


DMF     Death Master File


EVS     Enumeration Verification System


FO      Field Office


FOIA    Freedom of Information Act


GAO     General Accounting Office


MBR     Master Beneficiary Record


OIG     Office of the Inspector General


RRB     Railroad Retirement Board


SSA     Social Security Administration


SSN     Social Security Number


VA      Veteran's Administration

                   APPENDIX B


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“IMPROVING THE USEFULNESS OF THE SOCIAL SECURITY ADMINISTRATION’S
DEATH MASTER FILE” (A-09-98-61011)


Recommendation 1

Reconcile the 1.3 million deaths that were recorded on the Master
Beneficiary Record (MBR) but not recorded on the Numident and
ensure that, in the future, all deaths are included on the Death
Master File (DMF).

Comment

We do not agree. A manual reconciliation process would be
extremely difficult and labor intensive. The process would
involve securing SS-5s (Application for Social Security number)
for each of the 1.3 million deceased beneficiaries and developing
evidence to verify their identity before we could match the names
on the payment record and the names on the Numident. In most
cases, the descendants’ MBR addresses are too old to use as a
means to contact surviving family members. Payment accuracy is
our highest priority and, therefore, our efforts and resources
have been directed towards ensuring the accuracy of the MBR.
With regard to the DMF, as you note in your report, we include a
disclaimer for users of this file that states that the
information may not be accurate because SSA does not verify death
information for non-beneficiaries.

Recommendation 2

Annotate the DMF to identify which deaths have been sufficiently
verified by the Agency prior to awarding or terminating benefits.

Comment

We agree that annotating the DMF to reflect which deaths the
Agency has proven or verified has merit and would be helpful to
other agencies that use DMF data to detect and prevent erroneous
payments to deceased individuals.

The necessary documents will be submitted to the
Client/Enumeration 5-Year Plan Committee requesting that this
initiative be included in a future release of the Death Alert,
Control and Update System. The Committee’s next expected meeting
to evaluate new submissions will take place late Summer 2000. At
that time, a determination will be made on where this initiative
will be placed in the Agency’s enumeration/client priorities.




                                B-1
                                                                             APPENDIX C


                 OIG CONTACT AND STAFF

                   ACKNOWLEDGMENTS


OIG Contacts

    William Fernandez, Director, Program Benefits Audit Division (510) 970-1739

    Jack H. Trudel, Deputy Director (510) 970-1733

Acknowledgements

In addition to those named above:

    Joseph J. Brewster, Senior Auditor

    Timothy E. Meinholz, Auditor

    Cheryl Robinson, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-98-61011.
                        APPENDIX D


SSA ORGANIZATIONAL CHART

                              DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security 
                                                1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Management Services
                             1
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        98
               Overview of the Office of the Inspector General


                                    Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                           Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance,
and public affairs. OEO supports the OIG components by providing information
resources management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this
Office coordinates and is responsible for the OIG’s strategic planning function and the
development and implementation of performance measures required by the
Government Performance and Results Act. The quality assurance division performs
internal reviews to ensure that OIG offices nationwide hold themselves to the same
rigorous standards that we expect from the Agency. This division also conducts
employee investigations within OIG. The public affairs team communicates OIG’s
planned and current activities and the results to the Commissioner and Congress, as
well as other entities.

                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                          Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
